                                          SOCIAL SECURITY


MEMORANDUM

Date:      May 24, 2002                                                     Refer To:

To:        The Commissioner

From:      Inspector General


Subject:   Management Advisory Report: Recent Efforts to Reduce the Size and Growth of the
           Social Security Administration's Earnings Suspense File (A-03-01-30035)


           Attached is a copy of our final report. Our objective was to review the Social Security
           Administration's recent Earnings Suspense File (ESF) Contractor study to determine the
           likelihood of its recommendations reducing the size and growth of the ESF, while
           maintaining earnings integrity.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                         James G. Huse, Jr.


           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


 SOCIAL SECURITY ADMINISTRATION


    RECENT EFFORTS TO REDUCE
   THE SIZE AND GROWTH OF THE
 SOCIAL SECURITY ADMINISTRATION’S
      EARNINGS SUSPENSE FILE


     May 2002     A-03-01-30035



  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
Our objective was to review the Social Security Administration's (SSA) recent Earnings
Suspense File (ESF) Contractor study to determine the likelihood of its
recommendations reducing the size and growth of the ESF, while maintaining earnings
integrity.

BACKGROUND
Title II of the Social Security Act requires that SSA maintain the reported earnings
records of individuals. SSA uses these reported earnings to determine insured status
for entitlement to retirement, survivors, disability and health insurance benefits and to
calculate benefit payment amounts. The earnings records show the amount of earnings
reported by the worker’s employer (or the self-employed person) and the periods for
which the earnings were reported.

Reported earnings that match an individual’s name and Social Security number (SSN)
are posted to that individual’s record on the Master Earnings File (MEF). When SSA
receives a wage report, the data are matched against the Numident file, which is the
repository for all issued SSNs. This Numident validation attempts to match the SSN
and name information provided by employers against the name and SSN in SSA’s
Numident file. Wage items that are not posted to the MEF are placed in the ESF.

The ESF contains over 227 million Wage and Tax Statements (W-2) and $327 billion in
wages accrued between Tax Years (TY) 1937 and 1999 that could not be posted to
individuals' earnings records. During TY 1999 alone, the ESF grew by 8.3 million W-2s
and $39.4 billion in wages. Approximately 96 percent of ESF wages related to
TYs 1970 through 1999.

In 1999, SSA hired a Contractor to determine whether SSA should modify its existing
practices in managing the ESF, to follow sound business and accounting practices, and
more properly reflect the Agency’s activities regarding unidentified earnings.
Specifically, SSA’s objectives for the Contractor’s review were to:

   ·   Assess current and identify alternative approaches for managing the ESF;

   ·   Recommend record removal criteria that could be applied to the ESF;

   ·   Recommend ways to improve the integrity of the data maintained in the ESF;

   ·   Recommend approaches to administer the ESF in a more cost-effective way;




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                i
   ·   Determine the appropriate presentation of the ESF in SSA’s records and
       accounting systems; and

   ·   Recommend how to treat ESF items in reports to the public.

The Contractor stated that it (1) analyzed processes for the receipt and matching of
earnings items; (2) assessed alternatives for removing ESF data; and (3) reviewed
ways for reporting ESF information to the public.

RESULTS OF REVIEW
Many of the alternatives and recommendations provided in the Contractor study can
assist SSA in reducing the size and growth of the ESF, while maintaining earnings
integrity. We concur with most of the Contractor's recommendations related to
managing the ESF more effectively. Regarding the Contractor's alternatives for
reducing the growth and size of the ESF, the data and associated analysis could have
been expanded to provide SSA with a better understanding of the risks related to the
more aggressive record removal alternatives. Finally, the Contractor's recommendation
that SSA provide the public with more information on the ESF can assist both SSA and
Congress in monitoring the status of suspended wages.

MANAGING THE ESF MORE EFFECTIVELY

We concur with 9 of the 11 Contractor recommendations related to managing the ESF
more effectively. Some of these recommendations were consistent with previous Office
of the Inspector General findings, such as improving educational correspondence to
employers informing them of name/SSN mismatches and imposing penalties on chronic
problem employers. Other contractor recommendations will require further analysis,
such as changing SSA's matching routines and redesigning decentralized
correspondence to employees.

REMOVAL CRITERIA THAT COULD BE APPLIED TO THE ESF

The Contractor provided SSA management with seven alternatives for reducing the
growth and size of the ESF. These alternatives range from an aggressive approach
that would eliminate all ESF items older than 3 years, 3 months and 15 days to a
conservative approach that would basically leave the ESF untouched. These
alternatives were ranked using four objectives set by the Contractor: (1) improved
accuracy of earnings records; (2) minimize costs; (3) reduce suspense file size; and (4)
reduce suspense file growth. The Contractor's study indicates that earnings accuracy
will decline, and administrative/program costs will increase, as SSA moves from the
conservative alternatives toward the more aggressive alternatives. However, the more
aggressive alternatives will reduce the overall size of the ESF. The Contractor did not
quantify the potential costs related to the alternatives. In addition, the data used in the
study, as well as the associated analysis, could have been expanded to provide SSA
with a better understanding of the risks related to record removal.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                     ii
REPORTING ESF INFORMATION TO THE PUBLIC

We concur with the Contractor's recommendation that SSA provide the public with more
information on the ESF. Specifically, the Contractor recommended that SSA present
the ESF’s total earnings record number and dollar value for the current and most recent
earnings years, as well as the growth rate, in the Agency's Performance and
Accountability Report. While SSA has little control over the factors that cause the
volume of erroneous wage reports submitted each year, the Agency has some control
over the process. SSA can improve wage reporting by (1) educating employers on
reporting criteria; (2) identifying and resolving employer reporting problems; and
(3) coordinating with the Internal Revenue Service (IRS) on employers who continually
submit erroneous wage reports. A performance measure on the ESF may indicate to
management over time whether the problem is alleviated by ongoing Agency efforts.

CONCLUSIONS AND RECOMMENDATIONS

We concur with most of the Contractor’s recommendations related to managing the
ESF. However, before implementing any of the more aggressive ESF record removal
alternatives studied by the Contractor, SSA should conduct further analysis to ensure
that any data maintained in the ESF will make a difference in earnings accuracy in
terms of eligibility and/or benefit amount for the wage earner. Based on four primary
objectives, we believe the most critical objective is "improved accuracy of earnings
records." In addition, SSA needs to tie ongoing ESF efforts to a clear performance
measure using data sources already available for other performance measures. A
performance measure can assist both SSA and Congress in monitoring the status of
suspended wages.

We recommend that SSA:

1. Implement the following Contractor recommendations for managing the ESF:

   · Evaluate and test all earnings testing routines to ensure they work as designed
     (MGT1).

   · Provide comprehensive electronic error reports to employers (MGT2).

   · Have the IRS penalize employers based on the number of errors submitted on
     their annual wage reports (MGT3).

   · Provide small employers with a user-friendly electronic filing method via the
     Internet for annual wage reporting (MGT5).

   · Capture the complete first and last names in the ESF and Reinstates Files
     (MGT7).




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)               iii
   · Develop minimum matching requirements for matching and reinstating records in
     the ESF through item correction (MGT8).

   · Modify its ESF capabilities so staff have more flexible search options (MGT9).

   · Properly document the ESF file and Reinstates File field codes and system
     functionality (MGT10).

   · Record the reinstatement and the date a record was reinstated in the Reinstates
     File to help track reinstatement lag time and provide an audit trail (MGT11).

2. Conduct additional analysis before implementing the following Contractor
   recommendations:

   ·   Exclude the Employer Identification Number from matching routines when
       matching ESF records to the Reinstates File reporting field (MGT4).

   ·   Redesign the decentralized correspondence notice to employees and send the
       notice after employers are given an opportunity to fix errors (MGT6).

3. Implement the Contractor recommendation for presenting ESF information in its
   performance reports, while also ensuring the measure provides a clear indication of
   real ESF growth.

4. Limit its removal activities to the following conservative alternatives until more is
   known about the costs and impact of record removal. We believe SSA can safely
   implement the following options without hindering the Agency's programs and
   operations:

   ·   ESF6 - Remove W-2 records more than 43 years old;

   ·   ESF5 - Remove W-2 records more than 50 years old;

   ·   ESF3 - Remove suspense file records that have been held for 75 years; or

   ·   ESF4 - Hold all suspense file records.

AGENCY COMMENTS
In response to our draft report, SSA stated it has already implemented a number of the
Contractor’s recommendations. For the remaining Contractor recommendations, SSA
is conducting a more in-depth analysis and will consider our opinions as the Agency
makes final decisions. (See Appendix D for SSA’s comments.)




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                  iv
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................6

  Recommendations for Managing the ESF More Effectively..................................6

  Recommendations for Removal Criteria That Could be Applied to the ESF.........8

  Recommendation for Reporting ESF Information to the Public ..........................16

CONCLUSIONS AND RECOMMENDATIONS.....................................................18

APPENDICES

Appendix A – Contractor Recommendations for Managing the Earnings
             Suspense File and Presenting Information to the Public

Appendix B – Contractor Recommendations for Removing Records from
             the Earnings Suspense File

Appendix C – Previous Office of the Inspector General Recommendations
             for the Earnings Suspense File

Appendix D – Agency Comments

Appendix E – OIG Contacts and Staff Acknowledgments




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)
                                                                       Acronyms
    EIN                Employer Identification Number

    ESF                Earnings Suspense File

    GPRA               Government Performance and Results Act

    INS                Immigration and Naturalization Service

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    OIG                Office of the Inspector General

    SSA                Social Security Administration

    SSN                Social Security number

    TY                 Tax Year

    W-2                Wage and Tax Statement

    W-3                Employer Wage Report




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)
                                                                    Introduction
OBJECTIVE

Our objective was to review the Social Security Administration's (SSA) recent Earnings
Suspense File (ESF) Contractor study to determine the likelihood of its
recommendations reducing the size and growth of the ESF, while maintaining earnings
integrity.

BACKGROUND
Title II of the Social Security Act requires that SSA maintain the reported earnings
records of individuals.1 SSA uses these reported earnings to determine insured status
for entitlement to retirement, survivors, disability and health insurance benefits and to
calculate cash benefit rates. The earnings records show the amount of earnings
reported by the worker’s employer or the self-employed person and the periods for
which they were reported.

Reported earnings that match an individual’s name and Social Security number (SSN)
in SSA's Numident2 file are posted to that individual’s record on the Master Earnings
File (MEF). Wage items that are not posted to the MEF are placed in the ESF. The
ESF represents all earnings processed by SSA and certified to the trust funds, but
which fail validation routines to match them to a specific individual’s name and SSN.
Approximately 10 percent of the annual wage reports SSA receives have invalid
name/SSN combinations. To reduce the number of unmatched items, SSA uses over
20 separate computer routines and other manual processes.

When SSA locates a valid name and SSN for a suspended wage item, the item is
moved from the ESF to the MEF, and a new record is established in SSA's Reinstates
File. There are two Reinstates Files: one for wages and one for self-employment
earnings. These Files can provide a limited audit trail for determining how earnings
were originally reported and why they were reinstated from the ESF to the MEF.



1
  "On the basis of information obtained by or submitted to the Commissioner of Social Security, and after
such verification thereof as the Commissioner deems necessary, the Commissioner of Social Security
shall establish and maintain records of the amounts of wages paid to, and the amounts of self-
employment income derived by, each individual and of the periods in which such wages were paid and
such income was derived and, upon request, shall inform any individual or his survivor, or the legal
representative of such individual or his estate, of the amounts of wages and self-employment income of
such individual and the periods during which such wages were paid and such income was derived, as
shown by such records at the time of such request." 42 U.S.C. § 405(c)(2)(A).
2
  When SSA receives a wage report, the data are matched against the Numident file, which is the
repository for all issued SSNs. This Numident validation attempts to match the SSN and name
information provided by employers against the name and SSN on SSA’s Numident file.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                   1
The ESF contains over 227 million Wage and Tax Statements (W-2) and $328 billion in
wages accrued between Tax Years (TY) 1937 and 1999 that could not be matched to
individuals' earnings records (see Figure 1). During TY 1999 alone, the ESF grew by
8.3 million W-2s and $39.4 billion in wages. Approximately 96 percent of the ESF
wages relate to TYs 1970 through 1999.


                        FIGURE 1: STATUS OF THE EARNINGS SUSPENSE FILE
                                       (Tax Years 1937-1999)


                            $45
                            $40
                            $35
          Suspended Wages




                            $30
              (Billions)




                            $25
                            $20
                            $15
                            $10
                             $5
                             $0
                              37

                                     41

                                            45

                                                   49

                                                          53

                                                                 57

                                                                        61

                                                                               65

                                                                                      69

                                                                                             73

                                                                                                    77

                                                                                                       81

                                                                                                              85

                                                                                                                     89

                                                                                                                            93

                                                                                                                                   97
                            19

                                   19

                                          19

                                                 19

                                                        19

                                                               19

                                                                      19

                                                                             19

                                                                                    19

                                                                                           19

                                                                                                  19

                                                                                                     19

                                                                                                            19

                                                                                                                   19

                                                                                                                          19

                                                                                                                                 19
                                                                                Tax Year



Each year—about 3 months before the wage earner’s birthday—SSA mails the wage
earner a report entitled “Your Social Security Statement.”3 To receive this Statement,
each wage earner must be age 25 or older and not already receiving Social Security
benefits. Also, SSA must have a current address available for the individual. The
statement provides personalized estimates of Social Security retirement, disability and
survivors benefits the wage earner could be eligible to receive. It also provides the
individual’s earnings history and an estimate of how much the individual and his or her
employer paid in Social Security taxes. In 1999, SSA mailed approximately 134 million
Statements to wage earners.

Contractor Study of the ESF

In 1999, SSA hired a Contractor to determine whether SSA should modify its existing
practices in managing the ESF, to follow sound business and accounting practices, and
more properly reflect the Agency’s activities regarding unidentified earnings.
Specifically, SSA’s objectives for the review were to:

      ·   Assess current and identify alternative approaches for managing the ESF;

3
    42 U.S.C. § 1320b-13.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                                               2
    ·   Recommend record removal criteria that could be applied to the ESF;

    ·   Recommend ways to improve the integrity of the data maintained in the ESF;

    ·   Recommend approaches to administer the ESF in a more cost-effective way;

    ·   Determine the appropriate presentation of the ESF in SSA’s records and
        accounting systems; and

    ·   Recommend how to treat ESF items in reports to the public.

The Contractor stated that it (1) analyzed processes for the receipt and matching of
earnings items; (2) assessed alternatives for removing ESF data; and (3) reviewed
ways for reporting ESF information to the public. The Contractor's recommendations in
these areas are shown in Appendices A and B.

Recommendations for Managing the ESF

The Contractor stated that it developed recommendations for managing the ESF more
effectively based on analysis of the ESF and SSA’s processes. The Contractor also
stated that many of SSA's key initiatives4 have due dates several years out, such as the
Internal Revenue Service (IRS) should penalize employers based on the number of
errors submitted on their annual wage report, and SSA should provide comprehensive
electronic error reports to employers. Both of these initiatives have completion dates of
December 2003. The Contractor recommended that SSA add resources and
reprioritize these projects so that they are completed sooner.

The Contractor also recommended that SSA make improvements in the matching
routines and streamline ESF reduction activities. In addition, the Contractor stated SSA
must ultimately change the behavior and practices of employers who currently submit
large numbers of invalid SSN/name combinations. The Contractor estimated that SSA
could save $14.4 million per year if it can reduce the number of records sent to
suspense by 50 percent.

Record Removal Alternatives

For the study, SSA provided the Contractor four alternatives for removing ESF items.
The Contractor stated that it developed three additional alternatives based on SSA’s




4
  SSA has numerous key initiatives related to management priorities. For example, SSA has Key
Initiative #46, Reduce Earnings Suspense File. This key initiative outlines the policy, operational, and
systems improvements necessary for SSA to fulfill its commitment in this area.



Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                  3
data, process, and policy analysis. The four objectives used as criteria for record
removal included: (1) improving earnings accuracy;5 (2) minimizing costs; (3) reducing
ESF size; and (4) reducing ESF growth.

The Contractor stated that it would be difficult for SSA to meet all four objectives at
once. For example, SSA could spend large sums of money to match a number of
earnings items in suspense. The first objective, improve accuracy of earnings records,
would be met while the second (minimize costs) would not. As with most decisions,
there are trade-offs when selecting among alternatives. SSA must carefully weigh the
alternatives and objectives so it can select the best overall solution.

Before removing records from the ESF, the Contractor recommended that SSA modify
its matching routines so that additional records can be posted to the MEF. Once SSA
selects the best alternative, the Contractor recommended that any records removed be
offered to the National Archives for permanent storage or destruction. Since ESF
records are considered Federal records, SSA cannot destroy them without the approval
of the National Archives; and such records must be given to the National Archives for
final disposition. This relieves SSA from maintaining the records and ensures that the
archived ESF records cannot be accessed by operations. This also shifts the burden of
proof for earnings evidence to the individual attempting to add wages for an archived
year.

Presenting ESF Information to the Public

The Contractor reviewed SSA's past accountability reports, strategic plans, and relevant
regulations for the Performance and Accountability Report to determine how SSA
should present ESF information to the public. The Contractor does not believe that
SSA's current Government Performance and Results Act (GPRA) measures and
description of the earnings process present an adequate picture of SSA's performance
goals for the ESF. The current presentation of the earnings process in SSA’s
accountability report does not describe the ESF processes, the number of items and
associated earnings in the ESF, the growth rate of the ESF, or SSA's plans to manage
the ESF to reach strategic plan goals.

The Contractor recommended that SSA present the total earnings record number and
dollar value for the current and most recent earnings years, as well as the growth rate,
in future accountability reports. The Contractor also recommended that SSA describe
the ESF process, present the total record number and value of records added to
suspense for the current and recent earnings years, and include the ESF growth rate in
the programmatic information section of its accountability report.


5
  The Contractor stated, "SSA should strive to improve the accuracy of earnings records so they can
properly determine a number holder’s eligibility and benefit amount for Old-Age, Survivors, and Disability
Insurance programs…When SSA removes records from suspense that have historically been reinstated
through item correction, their ability to improve earnings record accuracy is reduced since the records are
no longer available for reinstatement."


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                 4
SCOPE AND METHODOLOGY
To accomplish our objective, we:

·   Reviewed relevant documents related to the Contractor’s review of the ESF,
    including: SSA’s Statement of Work, the Contractor’s proposal to review the ESF,
    and the Contractor’s final report Earnings Suspense File Review, issued July 17,
    2001;

·   Interviewed staff and obtained relevant documents from Office of Systems
    Requirements and Office of the Senior Financial Executive staff concerning the ESF;

·   Reviewed pertinent laws and regulations related to the ESF;

·   Obtained a copy of the ESF Reinstates File and compared summary statistics from
    the File to the Contractor's statistics; and

·   Reviewed and compared the Contractor’s findings and recommendations to findings
    and recommendations from prior Office of the Inspector General (OIG) reports.

Our review did not include a test of information systems to verify the completeness and
accuracy of the ESF data provided by SSA. We conducted our review at SSA
Headquarters in Baltimore, Maryland, and in Philadelphia, Pennsylvania, between
September and November 2001. The SSA component responsible for the maintenance
of the ESF is the Office of Central Operations within the Office of the Deputy
Commissioner of Operations.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)              5
                                             Results of Review
We concur with most of the Contractor's recommendations for managing the ESF more
effectively. Some of these recommendations were consistent with previous OIG
findings. Other recommendations will require further analysis. In regard to reducing the
growth and size of the ESF, while the Contractor presented a number of record removal
alternatives based on four primary objectives, each must be reviewed in the context of
the Social Security Act requirement that the Commissioner maintain accurate records of
the public's lifetime earnings. In addition, potential costs related to the removal
alternatives were not quantified, and the data used in the study, as well as the
associated analysis, could have been expanded to provide SSA with a better
understanding of the risks related to record removal. Finally, we agree with the
Contractor's observation that SSA needs to create an ESF performance measure to
assist both SSA and Congress in monitoring the status of suspended wages.

RECOMMENDATIONS FOR MANAGING THE ESF MORE EFFECTIVELY
We concur with 9 of the 11 Contractor recommendations related to managing the ESF
more effectively. However, the remaining two recommendations will require further
analysis before we can properly assess their impact.

Recommendations We Support

·    MGT1 - SSA should evaluate and test all earnings testing routines to ensure they
     work as designed: We concur with this recommendation. In the study, the
     Contractor stated that its findings "…raise concerns about the accuracy and
     consistency with which SSA's matching routines match and post records to the
     MEF." The Contractor noted some additional matching techniques that may
     resolve items still in the ESF. Furthermore, the Contractor found some problems
     where ESF records were not reinstated when they met SSA's reinstatement
     criteria.

·    MGT2 - SSA needs to provide comprehensive electronic error reports to
     employers: We concur with this recommendation. In an earlier report, we
     recommended that SSA provide employers with educational correspondence that
     lists the problem W-2s and explains why accurate names and SSNs are important
     and possible penalties that may be imposed due to incorrect information.6




6
 Force Processing of Magnetic Media Wage Report with Validation Problems, (A-03-99-31001), May
2001.



Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                        6
·       MGT3 - The IRS should penalize employers based on the number of errors
        submitted on their annual wage reports7: We concur with this recommendation.
        This recommendation is consistent with a prior OIG recommendation that, with the
        IRS, SSA pursue penalties for chronic problem employers and seek its own
        sanctioning authority, if the IRS fails to impose penalties against chronic problem
        employers.8

·       MGT5 - SSA should provide small employers with a user-friendly electronic filing
        method via the Internet for annual wage reporting: We concur with this
        recommendation. We also recognize that SSA already has an initiative to assist
        small employers with electronic reporting. SSA's employer Internet site states that
        starting January 7, 2002, small employers with 10 or fewer employees can file
        wage reports for TY 2001 using the new feature, W-2 Online. The W-2 Online
        process will format the wage report from W-2 data and prepare printable versions
        of the W-2 and Employer Wage Report (W-3).

·       MGT7 - SSA should capture the complete first and last names in the ESF and
        Reinstates Files: We concur with this recommendation. The Contractor stated
        "…incomplete names make it more difficult to match and locate records."
        Maintaining this information in SSA’s Reinstates Files should assist staff with their
        ongoing earnings workload.

·       MGT8 - SSA should develop minimum matching requirements for matching and
        reinstating records in the ESF through item correction9: We concur with this
        recommendation. The Contractor noted "SSA currently lacks standards for what
        constitutes a match when matching and reinstating records from the suspense [file]
        with no earnings evidence…Minimum requirements will help to ensure records
        reinstated belong to the number holder." We also believe that clear procedures
        applied consistently would help to ensure earnings accuracy.

·       MGT9 - SSA should modify its suspense file capabilities so staff have more flexible
        search options: We concur with this recommendation. The Contractor stated
        "…the current search routine is inflexible and cumbersome." The Contractor also
        noted that a variety of search capabilities would assist staff, such as searching
        combinations of SSN, earnings year, Employer Identification Number (EIN),10 last

7
  Section 302 of H.R. 2036, 107th Congress, 1st. Session (2001), currently pending before Congress,
would extend SSA's civil monetary authority under 42 U.S.C. § 1320a-8 to cover employers who falsely
represent a number to be the social security account number assigned by the Commissioner of Social
Security, when such person knows or should know that such number is not the social security account
number assigned by the Commissioner to such individual.
8
 The Social Security Administration's Earnings Suspense File Tactical Plan and Efforts to Reduce the
File's Growth and Size, (A-03-97-31003), February 2000.
9
 Item Correction is defined as a manual correction of an earnings record utilizing SSA's Earnings
Maintenance system.
10
     EINs are unique identifiers issued to employers by the IRS.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                              7
     name, first name, and wages. In SSA's response to this recommendation, the
     Office of Systems Analysis stated that "…providing SSN level access to the file
     would be less complex to implement and would provide the most feedback."
     Adding an SSN search capability would make the search routine more flexible and
     efficient.

·    MGT10 - SSA should properly document the ESF file and Reinstates File field
     codes and system functionality: We concur with this recommendation. The
     Contractor noted that several matching routines were not properly documented,
     adding that, over time, knowledge of functionality and codes can be lost without
     proper documentation. We believe this will assist both SSA and others in
     understanding the reinstatement process.

·    MGT11 - SSA should record the reinstatement and the date a record was
     reinstated in the Reinstates File to help track reinstatement lag time and provide an
     audit trail: We concur with this recommendation. The Contractor noted it was
     difficult to determine whether there was an increase in reinstatements through item
     correction after the first mailing of "Your Social Security Statement” notices
     because the Reinstates File does not include the date the reinstatement occurred,
     nor the extract reason. We believe these additional data will assist both SSA and
     others in monitoring reinstatement activity.

Recommendations Requiring Further Analysis

·    MGT4 - SSA should exclude EINs from its matching routines when matching ESF
     records to the Reinstates File reporting field: The Contractor found that 4.1 million
     records worth approximately $11.1 billion could be reinstated if the EIN was
     excluded from the matching routine. The Contractor noted that a total of
     $16.7 million in cost reductions could be realized as a result of this new routine.
     We believe further analysis of this proposed change is necessary to ensure the
     process will not impact overall earnings accuracy.

·    MGT6 - SSA should redesign its decentralized correspondence11 notice to
     employees and send the notice after employers are given an opportunity to fix
     errors: We would prefer SSA defer taking action until our audit of SSA’s
     decentralized correspondence process is completed.

RECOMMENDATIONS FOR REMOVAL CRITERIA THAT COULD BE
APPLIED TO THE ESF
The Contractor provided SSA management with seven alternatives for reducing the
growth and size of the ESF. These alternatives range from an aggressive approach
that would eliminate all ESF items older than 3 years, 3 months, and 15 days to a

11
   Decentralized correspondence relates to SSA notices sent to either employees or employers in an
attempt to clarify the name/SSN combination reported on the W-2.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                            8
conservative approach that would basically leave the ESF untouched. In Table 1, we
have ranked these alternatives from the most conservative to the most aggressive
based upon the four objectives set by the Contractor: (1) improved accuracy of earnings
records; (2) minimize costs; (3) reduce suspense file size; and (4) reduce suspense file
growth. (See Appendix B for the Contractor's ranking and full descriptions of each
alternative.)

Table 1: ESF Record Removal Alternatives

     Category                                               Description
 Conservative       ESF4 - Hold All: Hold all suspense file records.

 Conservative       ESF3 - 75 Years: Remove suspense file records that have been held for 75 years.

 Conservative       ESF5 - 50 Years: Remove records from suspense if they have little or no chance for
                    reinstatement through item correction based on past history. This includes:
                    § W-2 records more than 50 years old.
                    §   After completion of administrative purification operations, records that have an invalid
                        SSN and invalid name.
                                                             12
                    §   Processed “Recap” W-2s and W-3s.


 Conservative       ESF6 - 43 Years: Remove records from suspense if they have limited chance for
                    reinstatement through item correction including:
                    § W-2 and self-employment records more than 43 years old.
                    §   After completion of administrative purification operations, remove records that have an
                        invalid SSN and invalid name.
                    §   Processed “Recap” W-2s and W-3s.

      Moderate      ESF2 - 4 or More Years: Remove records based on their age and characteristics, including:
                    § Records with no SSN and 4 or more years old.
                    §   Records for earnings years 1937-1950.
                    §   Records with no monetary amount.
                    §   Records with no SSN and name.
                    §   Processed “Recap” W-2s and W-3s.

      Moderate      ESF7 - 7 Years: Remove records from suspense that are more than 7 years old.

     Aggressive     ESF1 - 3.25 Years: Remove all items from suspense that have been processed through all
                    currently available administrative purification operations and are older than the earnings
                    statute of limitations (3 years, 3 months and 15 days).




12
     Processed Recap W-2s and W-3s represent sick pay paid by a third party—not wages.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                   9
Below, we present the seven Contractor alternatives in terms of their impact on
earnings accuracy, costs, ESF size and ESF growth, as provided in its study. The
following figures show that earnings accuracy declines and administrative/program
costs increase as SSA moves from the conservative alternatives toward the more
aggressive alternatives. However, at the same time, the size and growth of the ESF are
reduced as SSA moves toward the more aggressive alternatives. See Appendix B for
more detail on the Contractor’s ranking of each alternative.



                             Figure 2: Ability of Contractor Alternatives
                                   to Improve Earnings Accuracy

                                                 5
          Improve Earnings




                              Very High          4
             Accuracy




                                                 3


                                                 2
                              Moderate
                                                 1


                                                 0
                              Very Low
                                                            3)


                                                                       5)


                                                                                6)


                                                                                             )




                                                                                                                )
                                                     4)




                                                                                                    7)


                                                                                                                 1
                                                                                             2




                                                                                                              SF
                                                            SF


                                                                     SF


                                                                              SF


                                                                                          SF
                                              SF




                                                                                                   SF
                                                          (E


                                                                   (E


                                                                            (E


                                                                                       (E




                                                                                                           (E
                                            (E




                                                                                                 (E

                                                                                                        rs
                                             l


                                                        s


                                                                   s


                                                                            s


                                                                                   rs


                                                                                               s
                                          Al


                                                      ar


                                                                 ar


                                                                          ar




                                                                                             ar


                                                                                                       a
                                                                                   a




                                                                                                    Ye
                                                     Ye


                                                            Ye


                                                                       Ye


                                                                                Ye


                                                                                          Ye
                                        p
                                     ee




                                                                            4+




                                                                                                   25
                                             75


                                                          50


                                                                   43




                                                                                         7
                                    K




                                                                                                 3.




                                                                       Contractor Options




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                            10
                                Figure 3: Ability of Contractor Alternatives
                                            to Minimize Costs

                                                     5


                                  Very High          4
               Minimize Costs




                                                     3


                                                     2
                                   Moderate
                                                     1


                                                     0
                                  Very Low




                                                                                                                   )
                                                                  3)


                                                                            5)


                                                                                     6)


                                                                                                  )
                                                         4)




                                                                                                         7)


                                                                                                                    1
                                                                                                2




                                                                                                                 SF
                                                                SF


                                                                          SF


                                                                                   SF


                                                                                             SF


                                                                                                        SF
                                                    SF

                                                              (E


                                                                        (E


                                                                                 (E


                                                                                          (E




                                                                                                              (E
                                                  (E




                                                                                                      (E
                                                            s


                                                                        s


                                                                                 s


                                                                                          s




                                                                                                             s
                                                 l




                                                                                                  s
                                              Al




                                                                                                           ar
                                                          ar


                                                                      ar


                                                                               ar


                                                                                        ar


                                                                                                ar

                                                                                                         Ye
                                                         Ye


                                                                  Ye


                                                                            Ye


                                                                                     Ye


                                                                                              Ye
                                             p
                                           ee




                                                                                 4+
                                                  75


                                                                 50


                                                                        43




                                                                                                        25
                                                                                              7
                                          K




                                                                                                      3.
                                                                            Contractor Options

                                Note: Not all costs were quantified by the Contractor. See our discussion below.




                                Figure 4: Ability of Contractor Alternatives
                                       to Reduce Suspense File Size

                                                     5
          Reduce File Size




                                  Very High          4


                                                     3


                                                     2
                                   Moderate
                                                     1


                                                     0
                                  Very Low
                                                                                                             1)
                                                                  3)


                                                                            5)


                                                                                     6)


                                                                                                             2)
                                                         4)




                                                                                                            7)

                                                                                                          SF
                                                                SF


                                                                          SF


                                                                                   SF


                                                                                                          SF
                                                    SF




                                                                                                         SF

                                                                                                       (E
                                                              (E


                                                                        (E


                                                                                 (E


                                                                                                       (E
                                                  (E




                                                                                                       (E


                                                                                                     s
                                                                                         s
                                                 l


                                                             s


                                                                      s


                                                                                s




                                                                                                    s
                                              Al




                                                                                                  ar
                                                           ar


                                                                    ar


                                                                              ar


                                                                                       ar


                                                                                                  ar
                                                                                     Ye
                                                         Ye


                                                                  Ye


                                                                            Ye




                                                                                               Ye
                                                                                               Ye
                                              p
                                           ee




                                                                                 4+




                                                                                            25
                                                  75


                                                                 50


                                                                        43




                                                                                             7
                                          K




                                                                                          3.




                                                                            Contractor Options




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                               11
                                   Figure 5: Ability of Contractor Alternatives
                                        to Reduce Suspense File Growth

                                                       5
              Reduce File Growth



                                    Very High          4


                                                       3


                                                       2
                                    Moderate
                                                       1


                                                       0
                                    Very Low




                                                                                                                    )
                                                                  3)


                                                                             5)


                                                                                      6)


                                                                                                   )
                                                           4)




                                                                                                          7)


                                                                                                                     1
                                                                                                   2




                                                                                                                  SF
                                                                  SF


                                                                           SF


                                                                                    SF


                                                                                                SF


                                                                                                         SF
                                                    SF




                                                                                                               (E
                                                                (E


                                                                         (E


                                                                                  (E


                                                                                             (E
                                                  (E




                                                                                                       (E
                                                              s


                                                                         s


                                                                                  s


                                                                                         rs




                                                                                                               s
                                                   l




                                                                                                     s
                                                Al


                                                            ar


                                                                       ar


                                                                                ar




                                                                                                             ar
                                                                                                   ar
                                                                                         a




                                                                                                          Ye
                                                           Ye


                                                                  Ye


                                                                             Ye


                                                                                      Ye


                                                                                                Ye
                                             p
                                           ee




                                                                                  4+




                                                                                                         25
                                                   75


                                                                50


                                                                         43




                                                                                               7
                                          K




                                                                                                       3.
                                                                             Contractor Options


Improving Earnings Accuracy Objective: While the Contractor appears to treat these
four objectives equally in its study, we believe the most critical objective is "improved
accuracy of earnings records." Minimizing costs and reducing the ESF's size and
growth are also important; however, the Social Security Act requires the Commissioner
to maintain accurate records of the public's lifetime earnings.13 Reducing costs and the
ESF are more related to management practices than to SSA’s mission. As a result,
each of the Contractor's alternatives should first be evaluated in terms of SSA's mission,
and SSA should ensure it understands the impact on earnings accuracy before moving
forward with any of the more aggressive alternatives.

A review of the alternatives shows that some of the Contractor’s criteria for ESF record
elimination may make sense, since they are unlikely to impact earnings accuracy. For
example, if a wage item has no dollar value, then there would appear to be little reason
to maintain that item in the ESF since it would not impact either benefit eligibility or the
benefit amount. However, the Contractor did note a caveat on zero wages that may
make it difficult to eliminate these items without further analysis. In the study, the
Contractor stated, "…a review of microfilmed paper records indicates that some of these
records have positive wage amounts…for Medicare wages [or] could be W-2C
correction records indicating that the number holder had no wages when they previously
had them." Unless these W-2C cases can be identified, the role of zero wages is
unknown. (See Data Analysis by the Contractor section of this report.)



13
     42 U.S.C. § 405(c)(2)(A).


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                                12
Minimizing Costs Objective: The Contractor's study was silent on the actual costs of
moving toward the more aggressive alternatives. For example, the only cost cited in its
report related to a public relations and awareness campaign, and no actual costs were
provided. In addition, the study did not provide costs related to (1) archiving removed
records; (2) potential systems enhancements to allow SSA staff to retrieve archived
records;14 or (3) shifting workloads from the teleservice centers to the field offices.15
Since these costs may be incurred immediately with any of the record removal
alternatives—with the exception of holding all ESF records—the magnitude needs to be
quantified before any removal alternatives can be fully assessed. SSA also needs to
factor these new costs against the costs of simply maintaining the ESF data. In earlier
comments to the Contractor study, SSA staff noted "…the cost of keeping these items in
the ESF is negligible."

Reducing Suspense File Size: In terms of reducing the ESF's overall size, SSA needs
to consider how much earnings history it is willing or lawfully permitted to remove. The
two most aggressive Contractor alternatives would remove a significant number of
records relating to the recent earnings history for most retiring workers. One alternative
would remove wage records older than 3 years, 3 months, and 15 days, while a second
alternative would remove records older than 7 years. After these two options, the
remaining alternatives have limited impact on a file that is growing at a rate of
approximately 11 percent per year. See Table 2 for a description of each record
removal alternative in terms reducing the ESF's overall size.

Table 2: Contractor Alternatives and ESF Size Reduction

                                                                               Percentage of ESF
        Alternative                       Size Description                     Wages Eliminated
 ESF4 - Hold All                    No wages eliminated.                              0%
 ESF3 - 75 Years                    No reduction in ESF until                         0%
                                    2013.
 ESF5 - 50 Years                    All wages older than 50 years.                      1%
 ESF6 - 43 Years                    All wages older than 43 years.                      2%
 ESF2 - 4 or More Years             Wages older than 4 years if                         11%
                                    missing an SSN and the
                                    earnings are for 1937-1950.
 ESF7 - 7 Years                     All wages older than 7 years.                       60%
 ESF1 - 3.25 Years                  All wages older than 3 years,                       72%
                                    3 months, and 15 days.


14
  Systems enhancements may not be required if SSA chooses to leave the earnings records in archived
status with no further review.
15
  SSA teleservice centers are currently able to reinstate wages from the ESF if the caller can provide an
EIN and a valid name or SSN. If the caller cannot provide the teleservice center with this information, the
caller is referred to an SSA field office where he or she may be required to visit the office. If wages are
no longer available in the ESF, more callers may be referred to the field office for wage corrections.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                13
The vast majority of ESF wages may relate to individuals who are still working and
therefore could impact their eligibility and/or payment amount under SSA's programs.
Approximately 96 percent of the wages in the ESF relate to earnings since TY 1970.16
Assuming an individual retired at age 62 in TY 2000, the TY 1970 wages in the ESF
would relate to their earnings at age 32. Only the four most conservative removal
alternatives maintain wages earned since TY 1970 and therefore leave the majority of
this relevant earnings history available for reinstatement. As the Contractor noted in its
study, removing wages that could relate to an individual's earnings history could be
seen as shifting the earnings accuracy burden from the Federal Government to the
individual.17

Reducing Suspense File Growth: The Contractor defined reducing ESF growth as
minimizing future growth of the ESF in terms of record count and wages. A high score
indicates that the suspense file growth is minimized. However, since none of the
removal criteria would impact the number of items added annually, we do not believe
ESF growth is relevant to the Contractor's analysis of ESF record removal options.
Instead, growth is adequately handled by the Contractor in its recommendations for
managing the ESF more effectively.

Data Analysis by the Contractor

The earnings data used in the Contractor study, as well as the associated analysis,
could have been expanded to provide SSA with a better understanding of the risks
related to record removal. The Contractor utilized data from SSA's Reinstates File to
determine the reinstatement activity on older earnings. However, SSA has noted that
the Reinstates File is an incomplete picture of reinstatement activity, since it shows only
the last reinstatement in a series of reinstatements. For example, if an individual has
5 years of wages reinstated between TYs 1980 and 1984, only information from 1984
would appear in the Reinstates File. As a result, the Contractor relied on an incomplete
file that was biased against the older reinstatement data—the very data necessary to
analyze relevant trends.

The Contractor study also limited its review to item corrections in the Reinstates File
rather than all reinstatement activity. Item corrections represent manual input by SSA
earnings technicians. Our analysis of the Reinstates File since 1937 shows that this
particular code represented approximately 1.3 million reinstated items, or only 1 percent
of reinstatements that occurred over the past 70 years. However, the Contractor did not
analyze other ESF edit programs, such as SWEEP,18 that are able to associate records
16
     This period also encompasses 65 percent of the wage items in the ESF.
17
  SSA's responsibilities related to the maintenance of earnings information is covered under 42 U.S.C. §
405(c)(2)(A).

18
  SWEEP is an automated operation that periodically uses the latest system enhancements and
validation rules to remove items from the ESF and reinstate them to wage earners’ MEF records.
According to SSA's Reinstates File, between TYs 1937 and 1999 at least 1.7 million items were
reinstated under this process.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                              14
with potential earners. For instance, SWEEP may have reinstated wages that would not
normally be reinstated under the item correction process. The Contractor's exclusion of
these data limits SSA's ability to fully assess the risks involved in record removal.

Furthermore, the Contractor reviewed the potential impact on earners when wage data
were reinstated 50 years later. Their analysis reviewed the role of these wages in terms
of both eligibility and benefit amount. However, a similar analysis was not performed on
more recent years, such as wage data reinstated 7 years later. As a result, SSA does
not have an analysis of the risks of eliminating data that are fewer than 50 years old.

Finally, the Contractor recommended an improvement in the edit processes that would
have identified as much as 7.5 million wage items worth $7.1 billion going back many
years. Such a finding appears to be inconsistent with other findings in the study related
to record removal. This improved edit, as well as future edit improvements, may have
the ability to reinstate the very wages that the more aggressive record removal
alternatives would remove.19 However, this finding has not been verified by either SSA
or the Contractor to determine whether these reinstatements are valid.

Other Factors for Consideration

In addition to the Agency-provided criteria used by the Contractor in naming these
options, the Contractor also noted additional factors that SSA management would need
to consider before archiving ESF records. The outlined factors include:

·     Public advocacy groups and Congress might take exception to removing records
      from suspense claiming that wages earned by the public are being disregarded and
      will not be available for reinstatement.

·     Potential changes in immigration laws may make older ESF information more
      important.20

·     About 15 percent of the individuals with earnings in the MEF do not receive a Social
      Security Statement21 and therefore are unable to notify SSA of incorrect earnings
      records.



19
     We did not review this data to determine whether these reinstated wages were appropriate.
20
  The Contractor’s study recognized that noncitizens in the country illegally might at some later point be
entitled to Social Security benefits associated with their income. See 42 U.S.C. § 410. Consequently, the
Contractor recognized that earnings in the ESF attributable to such noncitizen work activity could
potentially be claimed and reinstated following changes in the current immigration laws. However, the
Contractor recognized that the range of potential wage items and associated dollars attributable to such
noncitizens would be difficult to verify.
21
  SSA is unable to locate addresses for all wage earnings in the Master Earnings File. As a result, some
individuals do not receive Social Security Statements.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                              15
·    Itinerant workers who move frequently may not receive a Social Security Statement
     and might also lack W-2 documentation to support their earnings later.22

·    Since number holders under 25 year of age do not get Social Security Statements,
     the more aggressive alternatives could cause problems for individuals who work as
     teenagers. For example, under the 7-year alternative, a 15-year-old worker would
     not receive a statement until age 25 yet his or her suspended earnings would be
     archived when the individual was 22 years old.

RECOMMENDATION FOR REPORTING ESF INFORMATION
TO THE PUBLIC
We concur with the Contractor's recommendation that SSA provide the public with more
information on the ESF. Specifically, the Contractor recommended that SSA present
the ESF’s total earnings record number and dollar value for the current and most recent
earnings years and the growth rate in its Performance and Accountability Report. In a
prior OIG report,23 we recommended that SSA establish performance goals and
measures in accordance with GPRA that track SSA’s success in reducing the growth
and size of the ESF. Presenting ESF information among its performance measures will
raise SSA management and Congress’ awareness of the growth in the ESF and
motivate SSA to reprioritize ESF projects so that they are completed sooner.

SSA has a number of ways to present information on the size and growth of the ESF.
In Figure 6, we present the 6-year growth of ESF wages as a percentage of total
reported wages. For example, in TY 2000, approximately $4.3 trillion in wages was
reported to SSA, and about $58.5 billion (1.36 percent) of these wages went into the
ESF. This approach provides a better measure of growth by placing the ESF in the
context of overall reported wages. In addition, any inflation would equally affect both
the suspended wages and the total wages. Furthermore, if SSA pursues one of the
Contractor's record removal alternatives, this measure will not be affected since it is a
snapshot of the ESF each TY and is not dependent on the overall size of the ESF.




22
   This statement is consistent with OIG conclusions that a large part of the ESF appears to be related to
transient workers.
23
  Obstacles to Reducing Social Security Number Misuse in the Agricultural Industry, (A-08-99-41004),
January 2001.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                               16
                               Figure 6: Percent of Suspended Wages
                                Compared to Total Reported Wages

                                   1.40
                                   1.20
             ESF as a Percent of
               Posted Wages


                                   1.00
                                   0.80
                                   0.60
                                   0.40
                                   0.20
                                   0.00
                                          1995   1996   1997   1998   1999   2000
                                                         Tax Years

          Note: Total posted wages includes wages going into the Master Earnings
          Files as well as the ESF.


While SSA has limited control over the factors that cause the volume of erroneous wage
reports submitted each year, the Agency still has some ability to improve the process.
SSA can improve wage reporting by (1) educating employers on reporting criteria;
(2) identifying and resolving employer reporting problems; and (3) coordinating with the
IRS on employers who continually submit erroneous wage reports. For example, SSA
can encourage greater use of its SSN verification programs to ensure employers submit
wage reports with valid name and SSN combinations. In a recent OIG report,24 we
noted how one employer could have prevented $10.2 million in wages from going into
the ESF, if the employer had used SSA's Employee Verification Service. In addition,
wage reporting accuracy thresholds can identify problems with wage reports and
attempt corrections with the employer before the wages go into the ESF. A GPRA
measure on the ESF may indicate to management over time whether the problem is
alleviated by ongoing Agency efforts.




24
  Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022), September
2001.


Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                       17
                                            Conclusions and
                                           Recommendations
We concur with most of the Contractor’s recommendations related to managing the
ESF. However, before implementing any of the more aggressive ESF record removal
alternatives studied by the Contractor, SSA should conduct further analysis to ensure
that any data maintained in the ESF will make a difference in earnings accuracy in
terms of eligibility and/or benefit amount for the wage earner. Based upon four primary
objectives, we believe the most critical objective is "improved accuracy of earnings
records." In addition, SSA needs to tie ongoing ESF efforts into a clear performance
measure using data sources already available for other performance measures. A
performance measure can assist both SSA and Congress in monitoring the status of
suspended wages.

We recommend that SSA:

1. Implement the following Contractor recommendations for managing the ESF:

   · Evaluate and test all earnings testing routines to ensure they work as designed
     (MGT1).

   · Provide comprehensive electronic error reports to employers (MGT2).

   · Have the IRS penalize employers based on the number of errors submitted on
     their annual wage reports (MGT3).

   · Provide small employers with a user-friendly electronic filing method via the
     internet for annual wage reporting (MGT5).

   · Capture the complete first and last names in the ESF and Reinstates Files
     (MGT7).

   · Develop minimum matching requirements for matching and reinstating records in
     the ESF through item correction (MGT8).

   · Modify its ESF capabilities so staff have more flexible search options (MGT9).

   · Properly document the ESF file and Reinstates File field codes and system
     functionality (MGT10).

   · Record the reinstatement and the date a record was reinstated in the Reinstates
     File to help track reinstatement lag time and provide an audit trail (MGT11).




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)              18
2. Conduct additional analysis before implementing the following Contractor
   recommendations:

   ·   Exclude the Employer Identification Number from matching routines when
       matching ESF records to the Reinstates File reporting field (MGT4).

   ·   Redesign the decentralized correspondence notice to employees and send the
       notice after employers are given an opportunity to fix errors (MGT6).

3. Implement the Contractor recommendation for presenting ESF information in its
   performance reports, while also ensuring the measure provides a clear indication of
   real ESF growth.

4. Limit its removal activities to the following conservative alternatives until more is
   known about the costs and impact of record removal. We believe SSA can safely
   implement the following options without hindering the Agency's programs and
   operations:

   ·   ESF6 - Remove W-2 records more than 43 years old;

   ·   ESF5 - Remove W-2 records more than 50 years old;

   ·   ESF3 - Remove suspense file records that have been held for 75 years; or

   ·   ESF4 - Hold all suspense file records.

AGENCY COMMENTS
In response to our draft report, SSA stated it has already implemented a number of the
Contractor’s recommendations. (See Appendix D for SSA’s comments.) For the
remaining Contractor recommendations, SSA is conducting a more in-depth analysis
and will consider the OIG's opinions as the Agency makes final decisions. In addition,
SSA is considering adding a measure to track the reduction in growth of the ESF as part
of developing its Fiscal Year 2004 performance goals and measures. Finally, SSA
agreed with our recommendation to limit ESF removal activity until after evaluating
alternatives for archiving ESF items in terms of SSA's mission of maintaining accurate
earnings records.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                  19
                                   Appendices




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)
                                                                            Appendix A
Contractor Recommendations for Managing the
Earnings Suspense File and Presenting Information
to the Public
                     Managing the Earnings Suspense File (ESF)

Recommendation MGT1: The Social Security Administration (SSA) should evaluate and
test all earnings testing routines to ensure they work as designed.

Recommendation MGT2: SSA needs to provide comprehensive electronic error reports
to employers.

Recommendation MGT3: The Internal Revenue Service should penalize employers
based on the number of errors submitted on their annual wage reports.

Recommendation MGT4: SSA should exclude Employer Identification Numbers (EIN)
from its matching routines when matching ESF records to the Reinstates File reporting
field.

Recommendation MGT5: SSA should provide small employers with a user-friendly
electronic filing method via the Internet for annual wage reporting.

Recommendation MGT6: SSA should redesign its decentralized correspondence notice
to employees and send the notice after employers are given an opportunity to fix errors.

Recommendation MGT7: SSA should capture the complete first and last names in the
ESF and Reinstates Files.

Recommendation MGT8: SSA should develop minimum matching requirements for
matching and reinstating records in the ESF through item correction.

Recommendation MGT9: SSA should modify its suspense file capabilities so staff can
search the suspense file using a variety of combinations of Social Security number,
earnings year, EIN, last name, first name, and wages.

Recommendation MGT10: SSA should properly document the ESF file and Reinstates
File field codes and system functionality.

Recommendation MGT11: SSA should record the reinstatement and the date a record
was reinstated in the Reinstates File to help track reinstatement lag time and provide an
audit trail of all changes.
                         Presenting ESF Information to the Public

Recommendation: SSA should present the total earnings record number and dollar
value for current and most recent earnings years and growth rate in its performance
reports.
Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)              A-1
                                                                                                                                        Appendix B

Contractor Recommendations for Removing Records from the Earnings
Suspense File1
    #                Description                        Improve             Minimize Costs             Reduce ESF            Reduce ESF          Category
                                                        Accuracy                                          Size                 Growth
ESF1     Remove all items from suspense that            Very Low                 Moderate               Very High             Very High          Aggressive
         have been processed through all             1.4 million suspense   The Social Security       W-2 suspense file     Growth rate capped
         currently available administrative          file records more      Administration (SSA)      earnings reduced by   since records are
         purification operations and the earnings    than 3 years old       would have to initiate    72 percent and        removed every
         statute of limitations (3 years, 3 months   were reinstated        a public relations and    record count by       year and are only
         and 15 days).                               during 1997 through    awareness campaign        91 percent.           kept for 3 years
                                                     2000.                  stressing the
                                                                            importance of carefully
                                                                            reviewing “Your Social
                                                                            Security Statement” to
                                                                            identify missing
                                                                            earnings since a large
                                                                            portion of the
                                                                            suspense file records
                                                                            are removed.
ESF2     Remove records based on their age                  Low                  Moderate                 Moderate                Low            Moderate
         and characteristics, including:             90 million records     SSA would have to         W-2 suspense file     Growth is not
         § records with no Social Security           would be removed       initiate a public         earnings reduced by   effectively capped
             number (SSN) and 4 or more years        from suspense with     relations and             11 percent and        since a limited
             old                                     a name but no SSN;     awareness campaign        record count by       number of records
         § records for earnings years 1937           historically these     similar to alternative    46 percent.           are removed based
             through 1950                            records have been      ESF1.                                           on their age.
         § records with no monetary amount           reinstated through
         § records with no SSN and name              item correction.
         § processed “Recap” W-2s and W-3s.




1
  The Earnings Suspense File (ESF) record removal alternatives ESF1 through ESF4 were provided by SSA in the Statement of Work, which sought
recommendations on purge and archive criteria for the ESF. Three additional alternatives, ESF5 through ESF7, were developed by the Contractor based on its
own analysis.

Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                                                               B-1
  #                 Description                         Improve                 Minimize               Reduce ESF             Reduce ESF           Category
                                                        Accuracy                 Costs                    Size                  Growth
ESF7    Remove records from suspense that                 Low                   Moderate                  High                 Very High           Moderate
        are more than 7 years old.                  500,000 suspense        SSA would have to        W-2 suspense file       Growth rate capped
                                                    file records more       initiate a public        earnings reduced by     since records are
                                                    than 7 years old        relations and            60% and record          removed every
                                                    were reinstated         awareness campaign       count by 86%.           year and are only
                                                    during 1997 through     similar to alternative                           kept for 7 years.
                                                    2000.                   ESF1.
ESF3    Remove suspense file records that               Very High                   High                 Very Low                   Low            Conservative
        have been held for 75 years.                Records will be kept    Costs are minimal        No reduction in         Suspense file
                                                    well beyond the         since records are not    suspense file records   growth will not be
                                                    average working life    removed until 2013.      or wages until 2013.    capped until 2013.
                                                    for number holders.
ESF4    Hold all suspense file records.                 Very High               Very High                Very Low               Very Low           Conservative
                                                    All records kept for    No costs since all       No reduction in         Suspense file
                                                    reinstatement           records are kept –       suspense file records   growth not affected
                                                    through item            therefore very high      or wages.               since no records
                                                    correction.             score.                                           are removed.
ESF5    Remove records from suspense if they               High                     High                     Low                Moderate           Conservative
        have little or no chance for                2,062 of 1.3 million    SSA would have to        W-2 suspense file       Suspense file
        reinstatement through item correction       records reinstated      notify the public that   earnings reduced by     growth moderately
        based on past history. This includes:       through item            a small portion of the   1 percent and record    affected since
        § W-2 records more than 50 years            correction had an       suspense file would      count by 13 percent.    records more than
            old.                                    invalid SSN and         be removed.                                      50 years old are
        § After completion of administrative        name; these records                                                      removed each
            purification operations, records that   have been                                                                year.
            have an invalid SSN and invalid         historically
            name.                                   reinstated through
                                                    item correction
        § Processed “Recap” W-2s and W-3s.          despite the fact that
                                                    they had no name
                                                    and an invalid SSN.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                                                                 B-2
  #                 Description                         Improve             Minimize Costs             Reduce ESF            Reduce ESF         Category
                                                        Accuracy                                          Size                 Growth
ESF6    Remove records from suspense if they            Moderate                    High                  Low                 Moderate          Conservative
        have limited chance for reinstatement       SSA has reinstated      SSA would have to        W-2 suspense file      Suspense file
        through item correction including:          671 records from        notify the public that   earnings reduced by    growth moderately
        § W-2 and self employment records           suspense through        a small portion of the   2 percent and record   affected since
            more than 43 years old.                 item correction prior   suspense file would      count by 18 percent.   records more than
        §   After completion of administrative      to 1957. Score          be removed.                                     43 years old are
            purification operations, records that   slightly lower than                                                     removed each
            have an invalid SSN and invalid         alternative ESF5                                                        year.
            name.                                   since records are
                                                    not kept during the
        §   Processed “Recap” W-2s and W-3s.        full working life of
                                                    most number
                                                    holders (50 years).




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                                                                              B-3
                                                                            Appendix C

Previous Office of the Inspector General
Recommendations for the Earnings Suspense File
 The Social Security Administration’ s Earnings Suspense File Tactical Plan and
          Efforts to Reduce the File’ s Growth and Size (A-03-97-31003)
· Implement an Earnings Suspense File (ESF) Tactical Plan that places a high priority
  on key ESF reduction initiatives to include utilizing the Office of the Inspector
  General information to refine the Social Security Administration’s (SSA) data base of
  chronic problem employers and to key in on those with a multi-year history of
  submitting large numbers of erroneous wage items.

·   Assign a higher priority to work with the Internal Revenue Service (IRS) to prepare a
    legislative proposal to clarify employers’ right to see the Social Security card before
    hiring.

·   Pursue with the IRS penalties on chronic problem employers.

·   Seek sanctioning (penalty) authority if the IRS fails to impose penalties against
    chronic problem employers.

Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry
                                  (A-08-99-41004)
· Expedite implementation of the initiative to improve communication of name/Social
  Security number (SSN) errors to employers and employees.

·   Seek legislative authority to provide SSA with the tools to require chronic problem
    employers to use the Employee Verification Service.

·   Collaborate with the Immigration and Naturalization Service (INS) to develop a better
    understanding of the extent that immigration issues contribute to SSN misuse and
    growth of the ESF. Additionally, reevaluate its application of existing disclosure laws
    or seek legislative authority to remove barriers that would allow the Agency to share
    information regarding chronic problem employers with the INS.

·   Establish performance goals and measures in accordance with the Government
    Performance and Result Act of 1993 that track SSA’s success in reducing the
    growth and size of the ESF.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                 C-1
     Force Processing of Magnetic Media Wage Reports with Validation Problems
                                  (A-03-99-31001)
 ·    Ensure Employee Liaison Service Officers contact the 285 employers whose
      wage reports SSA force processed during Tax Years 1996 through 1998 to
      educate them on wage reporting services available through SSA and encourage
      their participation at seminars and workshops.

 ·    Provide information on chronic problem employers to the IRS to impose
      penalties. In the event the IRS fails to impose such penalties, SSA should
      consider a legislative proposal to establish its own sanctioning (penalty) authority.

 ·    Provide employers with educational correspondence that lists the problem W-2s
      and explains why accurate names and SSNs are important and possible
      penalties that may be imposed due to incorrect information.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                 C-2
                                                                            Appendix D
Agency Comments




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)
                                        SOCIAL SECURITY

MEMORANDUM


Date:       May 3, 2002                                                          Refer To:   S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry Dye        /s/
            Chief of Staff

Subject:    Office of Inspector General (OIG) Draft “Management Advisory Report: Recent Efforts
            to Reduce the Size and Growth of the Social Security Administration’s (SSA) Earnings
            Suspense File” (A-03-01-30035)


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report content and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                 D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
“MANAGEMENT ADVISORY REPORT: RECENT EFFORTS TO REDUCE THE SIZE
AND GROWTH OF THE SOCIAL SECURITY ADMINISTRATION’S (SSA)
EARNINGS SUSPENSE FILE” A-03-01-30035

We appreciate the opportunity to comment on the draft report. It should be noted that the report
reflects OIG’s opinions/comments on the recommendations contained in the July 18, 2001
Pricewaterhouse Cooper’s (PwC) report “SSA Earnings Suspense File Review.” The Agency
has already implemented a number of the PwC recommendations. For the remaining
recommendations, we are conducting a more in-depth analysis and will consider OIG's opinions
as we make final decisions. We are also providing technical comments that should be included
in the final report.

Recommendation 1

SSA should implement the following Contractor recommendations for managing the ESF:

·   Evaluate and test all earnings testing routines to ensure they work as designed (MGT1).

SSA Comment

We agree. The Agency annually conducts regression testing of the name validation routines to
ensure they work, and we constantly look for new name matching routines and evaluate new
software that has the potential to match incorrectly reported wages to the appropriate wage
earner.

·   Provide comprehensive electronic error reports to employers (MGT2).

SSA Comment

We agree. In tax year (TY) 2001, we implemented a process to provide employers with an
electronic suspense file of data to update. This file is provided on request to the employers. The
Electronic Wage Reporting (EWR) plans for TY 2002 make more comprehensive error
information available electronically.

·   Have the Internal Revenue Service (IRS) penalize employers based on the number of errors
    submitted on their annual wage reports (MGT3).

SSA Comment

SSA has previously written IRS Commissioner Charles O. Rossotti on two occasions (November
9, 1998 and May 4, 2000) requesting that IRS give consideration to developing initiatives to
improve name/SSN accuracy on Forms W2 (Annual Wage and Tax Statement). SSA offered a
number of suggestions that would provide additional incentives for the employer community to
improve the accuracy of name/SSN reporting including the possible implementation of penalties.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                     D-2
·   Provide small employers with a user-friendly electronic filing method via the Internet for
    annual wage reporting (MGT5).

SSA Comment

We agree. We made this filing method available with the TY 2001 release by introducing the
"Online W2" that allows small employers (10 employees or less) to file their W2s electronically.

·   Capture the complete first and last names in the ESF and Reinstates Files (RF) (MGT7).

SSA Comment

We are conducting a more in-depth analysis on this recommendation and will consider OIG’s
opinion when we make final decisions.

·   Develop minimum matching requirements for matching and reinstating records in the ESF
    through item correction (MGT8).

SSA Comment

See response to MGT7.

·   Modify ESF capabilities so staff have more flexible search options (MGT9).

SSA Comment

See response to MGT7.

·   Properly document the ESF file and RF field codes and system functionality (MGT10).

We are developing baseline documentation of both the ESF and RF. It is scheduled for
completion in July 2002.

·   Record the reinstatement and the date a record was reinstated in the RF to help track
    reinstatement lag time and provide an audit trail (MGT11).

SSA Comment

See response to MGT7.

Recommendation 2

SSA should conduct additional analysis before implementing the following PwC
recommendations:



Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                        D-3
·   Exclude the Employer Identification Number (EIN) from matching routines when matching
    ESF records to the Reinstates File reporting field (MGT4).

SSA Comment

We agree that further analysis is required before implementing the Contractor's
Recommendations.

We are analyzing the exclusion of the EIN from matching routines when matching ESF items to
the RF. The target date for developing thresholds for matching is September 1, 2002. We are
also conducting research to establish an appropriate method (thresholds for "scores”) of using the
Intelligent Search Technology (IST) software when neither the name nor Social Security number
(SSN) on the ESF item matches the name/SSN on the Numident. This is a new use of the IST
software, and a status report is expected in October 2002. Finally, we are developing prototype
software that expands the matching beyond the ESF and Numident to include data housed on the
earnings record and master beneficiary record. PwC acknowledged that the use of employment
and earnings history combined with SSN/name matching will lead to more matches and should
increase SSA’s confidence in what constitutes a match.

·   Redesign the decentralized correspondence notice to employees and send the notice after
    employers are given an opportunity to fix errors (MGT6).

SSA Comment

We agree that further analysis is required before implementing the Contractor's
recommendations.

OIG is currently conducting an audit on the decentralized correspondence process and has
requested that the decision on this recommendation be deferred until the review is complete.
Also, beginning TY 2002, notices were sent to all employers that reported at least one failed
SSN.

Recommendation 3

SSA should implement the PwC recommendation for presenting ESF information in its
performance reports, while also ensuring the measure provides a clear indication of real ESF
growth.

SSA Comment

As part of the development of SSA’s Fiscal Year 2004 Performance Goals and Measures we are
considering adding a measure to track reduction in growth of the ESF.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                       D-4
Recommendation 4

SSA should limit removal activities to the following conservative alternatives until more is
known about the costs and impact of record removal. We believe SSA can safely implement the
following options without hindering the Agency's programs and operations: ESF6 - remove W-2
records more than 43 years old; ESF5 - remove W-2 records more than 50 years old; ESF3 -
remove suspense file records that have been held for 75 years; and ESF4 - hold all suspense file
records.

SSA Comment

We agree with OIG's opinion that SSA should first evaluate alternatives for archiving ESF items
in terms of SSA's mission of maintaining accurate earnings records. We have completed a
preliminary analysis of the method and risks of archiving, as follows:

Developing a profile of the earnings records that will include the relationship between the
earnings records and the ESF and when/how earnings are posted to the earnings records.

Developing a profile of the ESF to identify items that have/do not have an impact on benefits
payable.

An analysis of the options, with recommendations, will be presented to the Commissioner
concerning what future actions should be undertaken by the Agency.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)                       D-5
                                                                            Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Walter Bayer, Deputy Director, (215) 597-4080

Acknowledgments

In addition to those named above:

   Mary Dougherty, Lead Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-01-30035.




Recent Efforts to Reduce the Size and Growth of SSA’s ESF (A-03-01-30035)
                        DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                             1
Management Analysis and Audit Program Support Staff, OFAM                  10
Inspector General                                                           1
Assistant Inspector General for Investigations                              1
Assistant Inspector General for Executive Operations                        3
Assistant Inspector General for Audit                                       1
Deputy Assistant Inspector General for Audit                                1
 Director, Data Analysis and Technology Audit Division                      1
 Director, Financial Audit Division                                         1
 Director, Western Audit Division                                           1
 Director, Southern Audit Division                                          1
 Director, Northern Audit Division                                          1
 Director, General Management Audit Division                                1
Issue Area Team Leaders                                                    25
Income Maintenance Branch, Office of Management and Budget                  1
Chairman, Committee on Ways and Means                                       1
Ranking Minority Member, Committee on Ways and Means                        1
Chief of Staff, Committee on Ways and Means                                 1
Chairman, Subcommittee on Social Security                                   2
Ranking Minority Member, Subcommittee on Social Security                    1
Majority Staff Director, Subcommittee on Social Security                    2
Minority Staff Director, Subcommittee on Social Security                    2
Chairman, Subcommittee on Human Resources                                   1
Ranking Minority Member, Subcommittee on Human Resources                    1
Chairman, Committee on Budget, House of Representatives                     1
Ranking Minority Member, Committee on Budget, House of Representatives      1
Chairman, Committee on Government Reform and Oversight                      1
Ranking Minority Member, Committee on Government Reform and Oversight       1
Chairman, Committee on Governmental Affairs                                 1
Ranking Minority Member, Committee on Governmental Affairs                  1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
